<html>
<title> - ADVOCATING FOR AMERICAN JACOB OSTREICHER'S FREEDOM AFTER TWO YEARS IN BOLIVIAN DETENTION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                     ADVOCATING FOR AMERICAN JACOB 
                  OSTREICHER'S FREEDOM AFTER TWO YEARS 
                         IN BOLIVIAN DETENTION 

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 20, 2013

                               __________

                           Serial No. 113-67

                               __________

        Printed for the use of the Committee on Foreign Affairs

Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

81-165 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (800) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-214 Mail: Stop IDCC, 
                      Washington, DC 20402-0001


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina



                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

Mr. Sean Penn, founder and chief executive officer, J/P Haitian 
  Relief Organization............................................     8

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Sean Penn: Prepared statement................................    14

                                APPENDIX

Hearing notice...................................................    32
Hearing minutes..................................................    33
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Material submitted for the record...............    34
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Material submitted for the record.......    35


                     ADVOCATING FOR AMERICAN JACOB
                     OSTREICHER'S FREEDOM AFTER TWO
                      YEARS IN BOLIVIAN DETENTION

                              ----------                              


                          MONDAY, MAY 20, 2013

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 3:05 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The committee will come to order, and thank you 
all for coming to this very important hearing to press for the 
immediate freedom and repatriation of Mr. Jacob Ostreicher, a 
U.S. citizen from Brooklyn, New York who has been detained in 
Bolivia for 718 days. I especially want to thank and welcome to 
our committee our distinguished witness, Mr. Sean Penn, for 
taking time out of a very busy schedule to testify before the 
subcommittee today. Thank you for being here and for your 
leadership.
    This human rights panel, in the 112th Congress, held two 
congressional hearings on Mr. Ostreicher's case, one in June 
and the second in August 2012. The witnesses included Mr. 
Ostreicher's wife Miriam Ungar, his daughter Chaya Weinberger, 
Steve Moore, a retired FBI agent who investigated Mr. 
Ostreicher's case on a pro bono basis, all three of whom are in 
the audience today, and Mr. Ostreicher's two Bolivian attorneys 
Mr. Yimy Montano and Mr. Jerjes Justiniano, who are not only 
ordinarily effective and competent defense lawyers, but very 
brave as well.
    The record, including their testimonies, established that 
Mr. Ostreicher is innocent, and is the victim of an elaborate, 
high level government extortion ring that has fleeced 
approximately $27 million of assets from the rice operation 
that he had been managing.
    It is time that Jacob came home to his wife and his family 
and his friends. Basic justice and humanitarianism--Jacob is 
after all very ill--adds to the urgency that he be free.
    In one sense, a lot has happened since the hearing last 
August. Tragically Mr. Ostreicher has developed the symptoms of 
Parkinson's disease, likely due to the sustained severe stress 
to which he has been subjected.
    Immediately following a meeting that I had with Bolivian 
officials in La Paz last June, including Carlos Romero, the 
Minister of Government, Bolivia started to investigate whether 
Mr. Ostreicher was the victim of extortion. A total of 27 
prosecutors, judges, and officials responsible for confiscated 
goods who were involved in Mr. Ostreicher's case have now had 
charges made against them. Currently 13 of them are in 
Palmasola prison, nine are under house arrest, and five are 
fugitives.
    One of those in prison, Fernando Rivera, is a Ministry of 
Government adviser who I personally witnessed threaten the 
judge presiding at one Mr. Ostreicher's hearings in a Santa 
Cruz courtroom. Mr. Rivera recently apologized to Mr. 
Ostreicher during a bail hearing, claiming that he was only 
following the orders of then Minister of Government Llorenti. 
In one of the many bizarre twists of this story, Mr. Llorenti 
is now the Bolivian representative to the United Nations, 
living in New York just a few miles away from Mr. Ostreicher's 
home.
    I traveled for a second time to Bolivia in early December, 
this time with Congresswoman Nydia Velazquez, to visit Mr. 
Ostreicher and again press Bolivian officials to either produce 
the evidence that he had committed a crime or free him. High 
level officials assured us that Mr. Ostreicher's case would 
proceed fairly and expeditiously now that the extortion network 
had been exposed. Some officials even admitted to us privately 
that they believed Mr. Ostreicher was innocent.
    Mr. Penn became involved in the case in October and was 
instrumental in obtaining desperately needed medical care for 
Mr. Ostreicher and for helping to secure his release from the 
infamous Palmasola prison to house arrest which occurred on 
December 18th. With Mr. Penn's personal intervention with 
President Morales and with Mr. Penn in the courtroom, all of us 
had hoped that Jacob would at long last be released and 
vindicated at a hearing in December. Inexplicably, that didn't 
happen.
    The State Department references Mr. Ostreicher's case in 
its 2012 Country Report on Human Rights and Practices for 
Bolivia, and notes the arrest of government officials and the 
stolen assets as part of its section on arbitrary arrests or 
detention.
    In another sense, the most important aspects of the case 
have not changed. Mr. Ostreicher is still in the custody of the 
Government of Bolivia. On June 4th, it will be 2 years since he 
was first imprisoned. Bolivian officials are employing delay 
tactics and giving excuses for his continued detention, and we 
have heard those before. No evidence whatsoever has been 
presented to indicate that Mr. Ostreicher is guilty of any 
crime, and there is no sign of the $27 million of assets from 
his rice operation that were confiscated. Perhaps this last 
fact is the real reason why Mr. Ostreicher is still not home 
with his family in the United States.
    Recently, there have been reports from credible sources 
that there is another security threat to Mr. Ostreicher's 
safety. These followed the sudden removal of Bolivian security 
officers from the perimeter of Mr. Ostreicher's residence the 
day after Mr. Rivera implicated the current Bolivian 
representative to the U.N. in the extortion case. As long as 
Mr. Ostreicher is forced to remain in Bolivia the government is 
responsible for and must take all necessary measures to ensure 
his safety.
    As a result of the continued injustice in Mr. Ostreicher's 
case and also in response to the growing number of cases of 
Americans living detained abroad in violation of their human 
and due process rights, I, together with Representative 
Velazquez have reintroduced the Justice for Imprisoned 
Americans Overseas Act, or Jacob's Law. H.R. 1778 would deny 
visas to foreign government officials responsible for violating 
the human rights or due process rights of an American in their 
custody. The travel ban would also apply to the officials' 
immediate family members.
    It is wrong for our Government to give foreign officials 
and their families the privilege--and it is a privilege, not a 
right--to visit and study in the United States while those same 
officials are wrongfully detaining an American abroad. I would 
note parenthetically that I wrote a law in 2004 for the Belarus 
Democracy Act, which does the exact same thing toward the 
Lukashenka regime in Minsk.
    While this bill works its way through the legislative 
process, our committee will continue to pursue every means 
possible to secure Mr. Ostreicher's safe return to his wife, 
children and 11 grandchildren. And that is why we are holding 
this hearing today.
    President Morales is flying, as we all know, to Atlanta 
today for a meeting with former President Jimmy Carter to ask 
for his assistance in negotiating land access through Chile to 
the Pacific Ocean. We have been assured that the President, 
former President of the United States will raise the issue. I 
contacted the Carter Center earlier today and I was told that 
it was on the agenda. And I am very, very encouraged by that.
    It is a very high privilege though to have Mr. Penn with us 
here today, not only because of his fame that he has rightly 
earned and garnered through his Academy Award winning acting, 
and not only because of his highly commendable assistance he is 
bringing to the suffering people in Haiti through the relief 
organization that he founded, but also because of the 
extraordinary assistance that he has provided to Mr. 
Ostreicher, who he had never met until he met him in Bolivia. 
That assistance now includes joining us today, but it is part 
of a long series of interventions that Mr. Penn has expended on 
behalf of Jacob Ostreicher.
    I would like to now yield to my friend and colleague, Ms. 
Bass, for any opening comments.
    Ms. Bass. Thank you very much. Chairman Smith, I want to 
thank you for your leadership of this committee, and you 
continued efforts to elevate human issues that require greater 
attention by Congress and our Government. This hearing 
certainly fits the bill regarding the incarceration of Jacob 
Ostreicher, a U.S. citizen who for over 2 years has endured a 
nightmare that is both unfair and unjust. And I am sorry to say 
that we are here having this hearing again over so much time.
    A year ago this committee learned of Mr. Ostreicher's case 
and held a hearing to elevate the deplorable injustice that he 
continues to endure in Bolivia. His wife, daughter, and members 
of his community sat in this very room and earnestly pleaded 
for justice and his safe and immediate release. His return to 
the United States would put an end to the traumatic events that 
have consumed him and his family for far too long. His return 
would also bring some sense of normalcy in their lives. This is 
not too much to ask or demand.
    I want to thank Mr. Penn for his willingness to travel here 
and to take action on this issue. I watched the press 
conference with you and Mr. Ostreicher, and your message was 
clear. Jacob's human rights have been grossly violated, those 
within the Bolivia justice system and those on the fringe have 
been deeply involved in repeated cycles of abuse, justice, 
human rights violation, the infringement of one's civil 
liberties, all of which have gravely impacted him, his family 
and, I would argue, the Bolivian people themselves.
    We define justice as the pursuit of fairness and a sense of 
reason. This situation boasts neither fairness or any basic 
understanding of reason. I urge the Bolivian Government to 
either put forward unequivocal evidence of any crime that he 
has committed or immediately release him to the U.S. and his 
family.
    As far as I am aware his assets have been stolen, his 
business lies in ruin, and he now shows the symptoms of 
Parkinson's disease, which was visible on the video that I saw 
when you had the press conference with him. How much more can 
one person or family endure?
    I am please that my colleagues, Representative Nadler and 
Representative Velazquez, are here to show their support and 
strong commitment. Senators Schumer and Gillibrand have also 
shown their unwavering commitment to getting him home. They 
should be commended. There is clear bipartisan and bicameral 
support for Jacob's release. As I said in my testimony a year 
ago, Jacob is not forgotten in the U.S. Congress and we 
continue to seek an immediate and final end to this terrible 
situation.
    Thank you, and I look forward to today's hearing.
    Mr. Smith. Thank you, Ms. Bass.
    Ms. Velazquez.
    Ms. Velazquez. Thank you, Chairman Smith, Ranking Member 
Bass, and members of subcommittee, for holding this important 
hearing and allowing me to participate.
    As many of you know, Jacob Ostreicher is an American 
citizen from Brooklyn, New York. He is currently being held by 
the Bolivian Government for alleged money laundering and ties 
to criminal organizations. As a congressional Representative 
for many of his family members in New York's Seventh District 
and a fellow Brooklynite, I am extremely concerned about the 
Bolivian Government's failure to provide adequate due process 
and human rights protection for this man.
    In fact, I visited Bolivia with Chairman Smith in December 
to meet with Mr. Ostreicher and discuss his detention directly 
with high level Bolivian Government officials. While he has 
been released from prison since our trip, he remains under 
house arrest with no foreseeable end to his ordeal.
    This man has already been detained without due process for 
the maximum 18 months allowed under Bolivian law; he should 
have been allowed to return to the U.S. in December.
    Yet the government has kept him in the country for an 
additional 5 months while conducting further investigations, 
despite the fact the prosecution has produced no evidence 
whatsoever to support such allegations. The Bolivian 
Government's failure to follow its own law is unacceptable and 
he should be released straight away.
    In order to protect the due process and human rights of 
Americans in foreign custody like Mr. Ostreicher, I am an 
original cosponsor of Chairman Smith's bill, H.R. 1778, the 
Justice for Imprisoned Americans Overseas Act, or ``Jacob's 
Law.'' This important legislation would require the State 
Department to take action when a U.S. citizen's human or due 
process rights are being violated while in custody of a foreign 
government. Moreover, the bill prohibits the provision of U.S. 
assistance to any foreign government that is responsible for 
the denial of due process and human rights of U.S. citizens in 
their custody. I look forward to this proposal coming to the 
House floor and having the opportunity to vote for it.
    However, due process and human rights are not the only 
entitlements we need to safeguard; we must also ensure our 
citizens have access to necessary medical services. That is why 
I am extremely concerned about the reports of Mr. Ostreicher's 
deteriorating health and recent Parkinson's disease diagnosis. 
Bolivia should release him immediately so that he may return to 
the U.S. to obtain a comprehensive medical evaluation with his 
own doctors and, of course, be with his family.
    While I ultimately hope for his swift homecoming, I am 
still grateful for the small improvements in his situation. He 
is no longer incarcerated under the harsh conditions at 
Palmasola prison and is receiving some medical treatment in the 
interim.
    I would like to take this opportunity to commend Mr. Penn 
for the measures that he took last December to help him access 
desperately needed health services and secure bail. Mr. Penn, 
your presence there meant so much to him and, for that, I am 
really grateful.
    Due process is not only an important element of a 
transparent legal system, it is a human right. It is incumbent 
upon the U.S. Government to protect this right for all American 
citizens, whether at home or abroad. We must ensure that the 
Bolivian Government upholds its due process laws and return Mr. 
Ostreicher to the U.S. immediately.
    And I also would like to add, Mr. Chairman, how grateful I 
am for the role that the Bolivian press has played in covering 
this case, giving it the high profile that was much needed with 
the Bolivian society.
    And with that, I yield back, Mr. Chairman.
    Mr. Smith. Ms. Velazquez, thank you very much.
    Mr. Nadler.
    Mr. Nadler. Thank you, Mr. Chairman. I want to begin by 
thanking you and Ranking Member Bass for holding this hearing 
and for giving me the opportunity to participate although I am 
not a member of the committee. I also would like to thank Sean 
Penn for his advocacy on behalf of Mr. Ostreicher, which is 
helping bringing international attention to this issue in a way 
that we couldn't otherwise.
    I am here today because my constituent Jacob Ostreicher 
remains in unlawful detention in Bolivia. Along with Mr. 
Ostreicher's family, friends, and his community in Brooklyn, I 
am very concerned about his continued confinement and his 
welfare.
    As you know, on June 20, 2011, Mr. Ostreicher was arrested 
in Bolivia on allegations of money laundering and associating 
with criminal organizations. He was held in a notoriously 
dangerous Palmasola prison for 18 months, and though he was 
released from prison on bail in December of last year, he 
remains under house arrest. Now nearly 2 years after he was 
originally detained, formal charges have yet to be filed 
against him and Mr. Ostreicher continues to maintain his 
innocence.
    In addition, more than a dozen Bolivian officials, 
including prosecutors, judges and the chief legal counsel to 
the Bolivian Interior Ministry, have since been arrested in 
connection with corruption in this case, in effect for 
attempting to frame Mr. Ostreicher. This amounts to nothing 
less than a horrible injustice for Mr. Ostreicher, who is in 
poor health and has been forced to stay in Bolivia separated 
from his wife, five children and 11 grandchildren.
    This is a man whose life has been unfairly put on hold 
while justice is denied to him day after day. Especially after 
the people instrumental in accusing him have been accused of 
corruption by the Bolivian Government, it is unfathomable that 
he continues to be held. The Bolivian authorities must be made 
immediately aware that this now absurd miscarriage of justice 
is unacceptable and conveys a negative message about their 
country to the United States and to the world.
    In fact, earlier this year the United Nations High 
Commissioner of Human Rights issued a report specifically 
citing Mr. Ostreicher's case as evidence of endemic corruption 
within the Bolivian justice system, indicating that Mr. 
Ostreicher's treatment constitutes a serious human rights 
abuse. Specifically in reference to Mr. Ostreicher's case, the 
U.N. report states, ``The existence of an extortion ring within 
the judiciary constitutes a serious threat to the credibility 
of the administration of justice.''
    The Bolivian Government must take immediate action to grant 
Jacob Ostreicher the due process he deserves and show to the 
world that this sort of injustice will not continue.
    Since he was first imprisoned I have been in frequent 
contact with the State Department about the status of Mr. 
Ostreicher's case and his condition. I want to thank the State 
Department for its work thus far in communicating with the 
Bolivian Government regarding Mr. Ostreicher's situation and to 
express his frustration and that of our entire Government 
regarding his treatment. That work must continue until we see 
positive results.
    In December of last year, after meeting with Mr. 
Ostreicher's wife, Miriam, I wrote a letter to Secretary of 
State Clinton asking for help communicating to the Bolivian 
Government the necessity of giving Mr. Ostreicher reasonable 
access to a swift trial. I also wrote a letter along with my 
colleagues in the House and Senate to the Bolivian Government 
making the same request. I understand that Bolivian law has its 
own standards that allow a prisoner to be held for 18 months on 
preliminary charges in the pretrial phase if there is a 
reasonable basis to believe that he or she committed a crime. 
That 18 months has long passed and they have shown no 
reasonable basis for believing that a crime was committed by 
Mr. Ostreicher. While I am glad that a Bolivian judge allowed 
Mr. Ostreicher to be detained at home rather than in prison, at 
home in Bolivia that is, holding someone for 2 years without a 
trial violates basic standards of fairness and human rights. 
Mr. Ostreicher is entitled to a fair trial like anyone else, to 
see the evidence against him, to have the opportunity to 
present evidence in his own behalf and to have that case heard 
promptly and impartially. If prosecutors do not have the 
necessary evidence already at hand, they should dismiss the 
case immediately and let him return to his family in New York.
    Our job will not be done until Mr. Ostreicher has been 
afforded a full measure of the simple justice to which everyone 
is entitled. We need everyone, Members of Congress, officials 
in the executive branch and other interested parties, to keep 
up the pressure on the Bolivian Government. It is important for 
everyone to remember our goal, to make sure Mr. Ostreicher is 
provided fair treatment and basic due process.
    The Bolivians must be made to understand that we will not 
stand idly by and simply accept the treatment that he has 
received to date. Pressure must continue to be applied to the 
Bolivian Government and its justice system to get Mr. 
Ostreicher and his family out of the terrible limbo they are 
in, either by finally giving him the trial he deserves or by 
dropping the charges and releasing him forthwith.
    I hope this hearing will serve to do just that, to keep the 
pressure on the Bolivian Government and to demonstrate how 
important Mr. Ostreicher and his situation are. It is important 
to U.S. Government officials and to the United States 
Government as a whole.
    With that, I thank you again, Mr. Chairman, and I yield 
back.
    Mr. Smith. Mr. Nadler, thank you very much.
    It is now an honor and privilege to welcome to the 
committee and introduce to the committee Sean Penn.
    In January 2010, after a 7.0 magnitude earthquake struck 
the nation of Haiti, Mr. Sean Penn established the J/P Haitian 
Relief Organization. Today, Mr. Penn directs a predominantly 
Haitian staff of nearly 400 development professionals to 
support the residents of the camps of J/P HRO and surrounding 
areas as they transition from life left homeless by the 
earthquake to durable, sustainable, and prosperous communities. 
This is done through foreign integrated programs, medical camp 
and relocation management, engineering and construction, and 
community development. J/P HRO is dedicated to saving lives and 
bringing sustainable programs to the Haitian people quickly and 
effectively. I know Mr. Penn will be traveling to Haiti from 
here. He is joined today by Ben Krause, Chief of Staff for the 
organization. Welcome, Ben, as well, to the committee.
    For his efforts, Mr. Penn has received numerous awards and 
honors. He was named Ambassador-at-Large for Haiti and 
presented with this honor by the President at a ceremony in 
Port-au-Prince in 2012. More recently, Mr. Penn was presented 
with the 2012 Peace Summit Award at the 12th World Summit of 
Noble Peace Laureates, a tribute for extraordinary solidarity 
by the Haitian Parliament in a combined meeting of the National 
Assembly. There is a long list of impressive awards and 
recognitions from the U.S. Army, international humanitarian 
organizations, and others that have flowed to him for his work.
    In addition to humanitarian work Mr. Penn, as we all know, 
has become an American film icon in a career spanning nearly 
three decades. Mr. Penn has received two Academy Awards and 
five Academy Award nominations for Best Actor. He is also a 
successful screenwriter, director, producer, journalist and, as 
we all are very grateful, a great friend of Jacob Ostreicher.
    Mr. Penn.

    STATEMENT OF MR. SEAN PENN, FOUNDER AND CHIEF EXECUTIVE 
            OFFICER, J/P HAITIAN RELIEF ORGANIZATION

    Mr. Penn. Chairman Smith, distinguished members of the 
committee, I sincerely appreciate your efforts and support of 
U.S. citizen Jacob Ostreicher and his family, and thank you for 
allowing me the opportunity to come before you and share my 
experience regarding Mr. Ostreicher and the increasing urgency 
of his situation.
    In 2012, I traveled three times to Bolivia, first in 
February on behalf of the Republic of Haiti in my role as 
Ambassador-at-Large. There I met with President Morales and I 
found him a man sincerely dedicated to his people and their 
economic and social development. It may be instructive to 
anecdotally recall for you the topics that dominated his part 
of our conversation.
    Number one, the issue of Bolivia's sea rights over 
ancestral Bolivian lands commandeered by a past Chilean 
Government 150 years ago.
    Number two, despite a standing extradition treaty with the 
United States, the U.S. has steadfastly refused to recognize 
the treaty as it might require the return of Bolivia's former 
President, Gonzalo Sanchez de Lozada, who is charged with 
genocide and currently in asylum in the United States, as well 
as Bolivia's former drug czar, General Rene Sanabria, who is 
currently held in the United States.
    I believe this second point is key to understanding 
Bolivian skepticism toward any outreach for respect of rule of 
law or human rights in the case of American Jacob Ostreicher.
    Number three, and perhaps the most instructive, the 
Bolivian campaign to educate those outside the region on the 
cultural and economic value of their dominant coca crop.
    I will not sit here today as an advocate for any of these 
three primary concerns though, I will briefly quote from a blog 
piece I published shortly after that trip:

        ``While indeed coca leaf is the base material for the 
        production of cocaine, it resembles cocaine only so 
        much as does the fertilizer so accessible and 
        profitable in the United States, so necessary for our 
        own farming community and its regrettable relativity as 
        the base material for explosives.''

    Bolivia's campaign seeking markets for export for the 
multiple benign uses of coca leaf reads, ``Coca no es 
cocaina.'' The economic impact on Bolivia of this largely 
puritanical misconception is tremendous and translates to human 
hardship that is palpable in that country. Further, it inflames 
the uninformed perceptions that connect Bolivia's leadership 
with the criminal narcotrafficking that Bolivia itself is so 
dedicated it to abate.
    Since this indigenous President assumed office in 2006 and 
while the United Nations General Assembly designated President 
Morales World Hero of Mother Earth in 2010, internal Bolivian 
opposition media, political, and economic powers have 
continuously exploited our own internal propaganda, leveraging 
the false perception of drug lordship and totalitarianism 
against this elected leader of this democratic socialist 
country.
    As a result, the U.S. media has ignored the rest of the 
story in Bolivia, including the tremendous reforms that have 
been enacted under President Morales' leadership, including a 
new Constitution embracing human rights at its core.
    Furthermore, even the case of Mr. Ostreicher garners a 
paucity of attention. An article just last week on CNN.com 
listing Americans unjustly held overseas failed to make mention 
of Mr. Ostreicher's case in spite of this subcommittee's 
repeated efforts to bring the injustice to national attention 
and peaceful resolution.
    My second trip to Bolivia in October 2012 resulted from a 
call from a colleague who had been contacted on behalf of the 
imprisoned American, Jacob Ostreicher. Based on my brief 
history with President Morales, I was asked to review the 
Ostreicher case, and having done so to my absolute satisfaction 
in his innocence, bring the case to President Morales.
    I began by reviewing the report of former FBI investigator 
Steve Moore, consulting with Mr. Ostreicher's Bolivian 
attorneys as well as his Washington based law firm representing 
he and his family pro bono, and discussing the matter with Mr. 
Ostreicher's wife, Miriam Ungar. All of these people have 
provided testimonies to this subcommittee before, and I would 
strongly encourage all of the new members to review the 
testimonies provided on June 6th and on August 1, 2012, so as 
to better inform yourselves to the injustice of Mr. 
Ostreicher's situation.
    I continued my investigation discussing the matters with 
members of the United States' State Department and made 
inquiries to my Venezuelan and Bolivian colleagues.
    Finally, I thoroughly reviewed the situation on the ground 
myself in Bolivia. Following all of this, I was not only 
personally and thoroughly convinced of Mr. Ostreicher's 
innocence, but particularly alarmed by a consensus both among 
Bolivian officials as well as international sources that the 
unevidenced prosecution of Jacob Ostreicher was SOP, standard 
operating procedure, in the fundamentally corrupt Bolivian 
judiciary.
    At that point I requested a second meeting with President 
Morales. In that meeting in La Paz I was able to share with the 
President the materials that had been provided me as well as 
additional information I had garnered from multiple sources.
    I will subject my intuition to your judgment. I was 
convinced then and I remain convinced today that these findings 
were received by the President with tremendous personal and 
human grief, that the President had indeed inherited a 
judiciary that at once was populated by brave and ethical 
servants of the Bolivian people and the rule of law but that 
within it a mafia-proportioned criminal network referred to as 
``la Red'' in Bolivia maintains a devastating grip on power, 
extortion, narcotrafficking, and human cruelty.
    I was not educating a President, but I was witnessing one 
who like any President faces the multifaceted challenges of 
governance. This President was being asked by an American 
friend to put laser attention on a single case, but one that he 
knew, and that I would come to know, reflected the challenge 
and gravitas of the situation at large for the Bolivian 
Government and its people in respect to their judiciary.
    President Morales in my presence immediately called his 
Minister of Government, who without hesitation referred to the 
case of Mr. Ostreicher, and I quote, as ``A bad case.''
    Following that meeting, the Bolivian Government ordered by 
President Morales gave new empowerment to the investigatory 
body, the judiciary, which resulted in the arrests and 
imprisonments of over 20 Bolivian officials, including Fernando 
Rivera, a primary representative of the Ministry of Government 
in the prosecution of Mr. Ostreicher.
    What had been exposed was an unprecedented ring of 
extortion.
    Indeed, Mr. Ostreicher's only ``crime'' was to have brought 
a successful rice concession and well-paying jobs to poor 
Bolivians.
    Upon the criminal actions of the judiciary, the rice and 
heavy equipment was commandeered and sold for personal profit 
and jobs for poor Bolivians evaporated.
    While the principle investor in Mr. Ostreicher's business 
venture, Swiss businessman Andre Zolty, was determined to be 
conducting legitimate and transparent business practices 
through an investigation by Interpol, and while Mr. Ostreicher 
had been able to account for every penny, demonstrate that all 
funds had legally and with full transparency been channeled 
through the Bolivian Central Bank, and that all funds had 
subsequently been invested legally and with the same 
transparency, it was Mr. Ostreicher who was carted off to a 
prison in Santa Cruz called Palmasola.
    Palmasola prison is described as a ``modern day Dante's 
Inferno.'' It has 4,500 inmates and they themselves run it. The 
corrections officers are limited to perimeter patrol and roll 
checks. It is a prison that receives the delivery of body bags 
to the front gate on a weekly basis and feeds its prisoners 18 
cents worth of mulchy broth twice daily through a trough. 
Disease, violence, and humiliation.
    In this prison Mr. Ostreicher lost 55 pounds, a full third 
of his body weight, and suffered the onset of Parkinson's 
disease and was subject to tremendous physical violence by 
guards and fellow inmates.
    In addition to enabling the arrests of ``la Red'' extortion 
network, President Morales also ordered an emergency medical 
examination for Mr. Ostreicher. I flew to Santa Cruz where I 
met with Minister of Government Carlos Romero and his Vice 
Minister Jorge Peres. With the support of President Morales and 
the assistance of Mr. Ostreicher's Bolivian attorneys, Minister 
Romero and Vice Minister Peres were able to expedite the 
doctor's examination.
    We went to Palmasola at 1 o'clock a.m. that same night and 
stood witness as the Bolivian state appointed doctor made the 
determination that Mr. Ostreicher was at life risk and signed 
the papers ordering that he be transported to a private medical 
clinic for immediate and continuing treatment.
    On my third visit to La Paz in December 2012 I was 
scheduled to meet with President Morales and Vice President 
Linera in advance of Jacob's hearing the following day. At the 
diplomatic home of Venezuelan Ambassador to Bolivia, Cris 
Gonzalez, we were informed that the meeting would no longer be 
necessary as Mr. Ostreicher's hearing in Santa Cruz the 
following morning was assumed to be that which would secure his 
release and exoneration.
    We were flown by military transport that evening to Santa 
Cruz. The following morning at the courthouse we were brought 
to a waiting room where despite our optimism Mr. Ostreicher, 
who was then in a minimally improved physical state, wearing 
the required body armor that acknowledged the Bolivian state's 
own concern for his safety in light of the criminal elements 
within their own judiciary, constrained by his own disability 
to a wheelchair, with hands shaking from Parkinson's disease, 
nonetheless had clarity of mind that our optimism had stolen 
from us.
    As we prepared for the arrival of the judge and the hearing 
to take place, I imparted to him based on what I had been told 
in La Paz that he would very soon be seeing his wife, his five 
children and his 11 grandchildren, from whom he had been 
significantly parted for 2 years. He said to me, ``It won't 
happen, Sean, these, expletives, want to kill me. I am too 
dangerous to them as a witness.''
    At that point we were notified that the judge would soon 
enter the court, and I assisted Mr. Ostreicher in his 
wheelchair into the courtroom.
    As an actor I have been in good movies and I have been in 
bad movies. I have never seen a worse movie or more arch 
villainy on such a caricature-ish and humanly diabolical level 
as I witnessed in that courtroom.
    Despite the clear and unequivocal arguments of innocence 
and, more importantly, evidence of innocence brought by Mr. 
Ostreicher's Bolivian defense team, the judge, under the clear 
intimidation of a panel of snickering, arrogant and hateful 
prosecutors, would have none of either logic or law.
    With Mr. Ostreicher still too frail to be touched without 
tremendous pain through his bones, contact with his then-paper-
thin skin and the Parkinson's, mixed with a heightened stress 
anxiety creating intense shaking, the prosecution dared even to 
challenge the Bolivian state doctor's medical diagnosis and 
claimed that Mr. Ostreicher was perfectly healthy and pushed 
for him to be returned to the death-factory of Palmasola 
prison.
    What followed was a very challenging negotiation to keep 
Mr. Ostreicher in the clinic so as to keep him from being 
returned to Palmasola prison and where we stand today through 
the diligent work of both his Bolivian and American attorneys 
and the dedicated support of this committee, and of Governor 
Bill Richardson, and indeed the cautious support of President 
Morales and his Venezuelan counterparts, Mr. Ostreicher is 
remanded to house arrest. While his weight and mobility have 
returned to something close to normal, the Parkinson's, quite 
likely triggered by the stress in his time in Palmasola prison, 
remains a debilitating concern, and he is in daily fear for his 
life, further exacerbating his Parkinson's.
    It is high time Mr. Ostreicher elderly parents, wife, 
children, and grandchildren receive him back in the United 
States to move on with their lives.
    This tragic scenario is not Bolivia. It is not the Bolivian 
people. It is not the Bolivian President. What it is, is an 
example of the continuing of the Bolivia's 100 years of 
struggle and its fight for human rights and its revolution for 
freedom. In that revolution, Bolivians have demonstrated an 
extraordinary courage and will for sacrifice. It is on that 
basis and in solidarity with President Morales and the Bolivian 
people that I offer the following: Last week registration 
opened for the Dakar Rally. As the off-road driving enthusiasts 
among us know, the Dakar Rally is one of the premier rally raid 
cross-country driving competitions in the world. Started more 
than 30 years ago as a race from Paris, France, along the 
Sahara to the desert in Dakar, Senegal, together hundreds of 
competitors in the motorcycle, car, and truck classes to 
compete in a 2-week race covering thousands of miles of the 
world's roughest terrain. For host countries the Dakar rally 
brings hundreds of thousands of dollars in charitable 
donations, millions of spectators and tourists, hundreds of 
millions of dollars in economic activity, and billions of 
viewers from 190 countries through global broadcasting. While 
the net impact of the rally is at times controversial, many 
have shared sentiments like the Government of Peru, which 
declared the rally ``a national interest,'' and the Argentine 
Minister of Tourism, who called the rally ``the biggest 
promotional tool for tourism in Argentina's history.''
    For the past 4 years the Dakar Rally has been racing 
through South America and in January 2014, for the first time 
ever, part of the race is scheduled to traverse southern 
Bolivia, making Bolivia the 28th host country in the rally's 
history. In fact, just last month rally organizers competed in 
a dress rehearsal across Bolivia's famous salt flats. The Dakar 
Rally, one of the world's most prominent displays of freedom 
and tenacity of the human spirit, will be parading through 
Bolivia even as thousands of prisoners like Mr. Ostreicher sit 
in feces filled cells, forgotten, behind locked walls, and 
surrounded by the sort of inhuman savagery we only dream is 
possible in existential nightmares. The Dakar Rally is 
scheduled to celebrate the triumphs of the human spirit and 
innovation on the same soil where the Bolivian justice system 
festers and loots the same from its innocent and uncharged 
victims.
    The Economist has reported that ``at least two-thirds of 
the prison population in Bolivia is on remand awaiting trial.'' 
Awaiting trial.
    So I ask you, the distinguished members of this committee, 
join me in calling on the sponsors of the Dakar Rally to bring 
their influence to bear for the thousands of innocent victims 
of the Bolivian justice system and especially for Jacob 
Ostreicher.
    Starting with the official partner of the Dakar Rally, the 
petrochemical giant Total, and then moving to each of the 
official partners: Michelin, Honda, Mitsubishi Motors, Red 
Bull, EDOX, Karcher, Aggreko, and even the official race 
photographer Maindru Photo, I ask that you use your influence 
to call on these sponsors to insist that their support for the 
Dakar Rally will either require Mr. Ostreicher is finally freed 
to return to the United States and, as Mr. Nadler mentioned, 
the 18 months allowed by the Bolivian Constitution to be held 
without charge has already passed and so there should be no 
discussion that could give opening to too late offers of an 
expedited trial, freed as a first sign of goodwill and the 
intention on the part of the Bolivian Government and the 
ethical within its judicial institutions as they continue the 
long and difficult process of justice and reform or the Dakar 
Rally with not enter Bolivia.
    I am confident the good people in these companies do not 
want to support the perpetual imprisonment of innocents and 
will recognize the necessity of principled withdrawal should 
the Government of Bolivia fail to act. But they should do this 
for practical reasons, too. Imagine the tragedy of one of their 
own people or one of the tourists following the rally while it 
passes through Bolivia were to become victims like Jacob and 
land behind bars without charges, without evidence against them 
and without rights.
    As 2014 will be the first time that the rally ventures into 
Bolivia, this first test run will only consist of one stage of 
the motorcycle class venturing across the Bolivian salt flats. 
This is to say that if the Bolivian justice system continues to 
deny Mr. Ostreicher the freedom that they themselves have 
indicated he is due, since they have not brought any legitimate 
charges against him, it is still possible for the Dakar Rally 
to exclude Bolivia.
    The international pressure could very well be precisely 
what the President of Bolivia needs to be able to finally expel 
the malignant cancer of corruption that is killing both of the 
Bolivian justice system and the thousands of innocent people 
like Mr. Ostreicher. Putting a clear cost for the continued 
abuse of the justice system on the economic elites of the 
country may well give President Morales and the people of 
Bolivia the leverage needed to advance their heroic fight for 
freedom and justice in Bolovia to the next level.
    So again, I ask that you all join me in calling on the 
sponsors of the Dakar Rally, Total, Michelin, Honda, Mitsubishi 
Motors, Red Bull, EDOX, Karcher, Aggreko and Maindru Photo, to 
demand Jacob's freedom as a condition of their support for the 
Dakar Rally in Bolivia.
    A last thought came from a telephone call that I had with a 
friend, a friend of high rank in the United States military. 
After spending most of his military career in South America and 
the Caribbean, he was later deployed to a post in South Asia, 
and after several months of deployment we spoke. He said that 
he had always considered the challenges of Caribbean and Latin 
America nearly insurmountable until experiencing his new 
position focused on South Asia and the Middle East. His 
realization of how much commonality the United States, Latin 
America and the Caribbean share he said, ``Should make this 
butter.'' It is my hope that Bolivia and the United States will 
take the lead in a new era of diplomacy and human rights for 
that which is our shared human interest, that Cuba will follow 
with the release of Alan Gross, and that the United States will 
refocus its diplomatic consideration on the Cuban Five without 
regard for fundamentalist opposition within political 
constituencies. Bolivia has a rare opportunity to trigger the 
movement of a new day where the discussion of human rights is a 
discussion without borders.
    Thank you.
    [The prepared statement of Mr. Penn follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Mr. Penn, thank you very much for that 
extraordinarily eloquent but also very bold statement. Not only 
did you lay out all the very real and tangible efforts that you 
have made and others have made encouraging, asking, 
petitioning, but now I believe you have given a means to a very 
positive outcome with the Dakar Rally recommendation. I can 
tell you that we will circulate a letter, pursuant to your 
recommendation, to the sponsors and ask that they again not 
allow this very important rally, this great economic boom, to 
occur in Bolivia until Jacob is freed. So I think this could be 
a game changer, it ought to be. Persuasion has, for almost 2 
years, not worked. So I think you bring to the table an 
enormous next step, and for that I believe all of us are very 
grateful for that recommendation.
    Mr. Penn. Thank you, Mr. Chairman.
    Mr. Smith. It does underscore another issue; how any non-
Bolivian, and even a Bolivian business investor could have any 
confidence that doing business in Bolivia might not make them 
the next Jacob Ostreicher. It is a very real threat to them, 
and so I think you have laid out a course of action that we 
will follow up on and I do thank you for that. Without 
leverage, you know, jaw boning and recommendations, even 
friendships only go so far, so thank you for that. If you 
wanted to elaborate any further on the idea, but we will 
circulate a letter. It will be bipartisan, I know that. And I 
think that will be very effective to at least get us on record.
    Mr. Penn. Thank you.
    Mr. Smith. Let me just ask you, you talk about the judicial 
system and I am glad you bring a very, very sharp focus there. 
In my first press conference with the Bolivian press last June, 
I had known of so many other cases that were just like Jacob's 
but non-American, and said that look at Jacob as a means to an 
end of getting the judicial system up to world class standards, 
international standards of fundamental human rights, due 
process rights, and as you said, la Red, this nefarious 
organization, this network continues to not only hurt Jacob but 
it hurts Bolivian people, and one of the points I made to the 
Bolivian press is that we stand in solidarity with the press in 
Bolivia just as we did with Jacob. And so join us in trying to 
push for reform, and I think your point was very well taken on 
that as well.
    No one should be behind bars ever anywhere who is innocent. 
We are not having any hearings about Americans who are 
committing crimes. We are having hearings and promoting 
innocent Americans, or anyone else for that matter, who are 
being prosecuted unjustly. So I take your point on that one as 
well.
    Just one question and any comment that you might want to 
make. We have tried to the get the United Nations to do more, 
along with other organizations. We know that Denis Racicot is 
there. I have met with him, Nydia Velazquez and I have met with 
him. But we know the U.N. itself is under pressure and runs a 
risk and has a certain fear that its own personnel might be 
retaliated against. But it seems to me that in New York the 
Human Rights Council ought to be taking up Jacob's case and the 
U.S. should be promoting that as well. Because when other 
levers don't work international organizations certainly provide 
a potential remedy.
    So if you wanted to speak to that.
    Mr. Penn. Well, I think that there are several institutions 
and government organizations who may be able to contribute 
their good offices and influence there. Bolivia is a very poor 
country, as we know, and it does demand an enormous amount of 
economic support in various sectors. So I think that there is 
that. At the same time I came to this hearing today a little 
ambivalent simply because there is such a perspective shift 
culturally that when they are challenged, especially by either 
citizens or government officials in the United States, there is 
an inclination towards, let's say, to this level of self-
destructive defiance in the kind of populism that is typical of 
the region. Leaderships often have to appeal on the basis of 
that defiance toward the United States. And I think that again, 
you know, that in looking forward on these kinds of 
negotiations in the future this is really a time as we become 
increasingly global I think it makes a lot of sense for us to 
adjust our view related to our own human rights abuses in this 
country, and also within any kind of the black and white hold-
ons that maintain small, small groups dictating the policy at 
large that affects the perception of the United States 
worldwide.
    There are compromises to be made. I brought up the Cuban 
Five. Clearly there are some in the Cuban Five who are 
seemingly guilty of higher offenses than others. But these are 
the kinds of diplomatic things that we really need to start 
working toward a fresh start with, so that we don't have a 
defiant leadership in these countries the next time something 
happens.
    And that would I think further empower the State Department 
to take a more active role. At this point I think it is fair to 
say that despite criticism the State Department has had, even 
in the case of Mr. Ostreicher, my experience there is that they 
have been very diligent and yet very cautious and rightly so 
because their public position taken against this government is 
that which quickly can inflame the situation rather than 
diffuse it.
    Mr. Smith. Ms. Bass. Thank you.
    Ms. Bass. Once again, Mr. Penn, thank you very much for 
your testimony. I particularly appreciated your testimony 
providing a context and especially a historical context in 
terms of our relationship with Bolivia, the sensitivity of 
that, the new leadership in the country, and also the 
precarious position that the President finds himself in. So I 
wanted to ask you a couple of questions along those lines.
    One, in terms of if you believe the U.S.-Bolivian 
relationship partially contributed to Mr. Ostreicher's 
imprisonment?
    And then your call for us to do a letter, I was speaking 
with Chairman Smith and said I am more then willing to sign on 
to a letter, and maybe that letter actually calls for the 
companies you talked about to withdraw their involvement unless 
he is released. On the other hand, the flip side of that is 
what were you just talking about. I am happy to do that if you 
think it would be helpful. On the other hand I would just be a 
little concerned that that could inflame things or even perhaps 
compromise President Morales. You described him as being 
genuinely concerned about the situation, and so that begs the 
question of why couldn't he just order the release. And so is 
the reason because he is in part receiving the pressure from la 
Red, is that what you referred to them as?
    Mr. Penn. Yes. Well, this would be the--you are referring 
to the criminal network within the judiciary, yes.
    Ms. Bass. Right. So I guess I am asking if you do think 
that's a good idea to ask for it to be that strong, to withdraw 
their involvement, which could certainly compromise the 
economic benefit to the country. Would that be helpful or would 
that be a contributing factor to inflaming?
    Mr. Penn. I think as with anything there is a threshold, 
and it is my opinion that the threshold has been crossed in 
terms of the incarceration of Jacob Ostreicher. Not only to the 
deficit of Mr. Ostreicher but to the Bolivian people and to the 
future of the institution of judicial process. I think that 
what I was insinuating was not so much that President Morales 
was cautious related to the reaction or the influence of la 
Red, but in particular that in the same way that leadership 
throughout the world are vulnerable to opposition media, the 
media is a rabid dog there, and they are largely run by 
opposition forces and influenced by opposition forces to this 
democratically elected leader of his people.
    So I by no means am suggesting a lack of courage; in fact, 
quite the contrary, but in terms of political strategy, he is 
caught between a rock and a hard place, is my perception of 
this. And also those ministers, those good ministers within the 
judiciary, in that as soon as they stand up and say, you know, 
they believe that Jacob Ostreicher should be released or he is 
innocent of these charges or, in fact, as is the case there is 
no evidence whatsoever against Mr. Ostreicher, it starts to be 
rumored that they are representatives of narcotrafficking.
    So it is that internal struggle that is never going to be 
broken until the strategy is based on principle. And the simple 
principle here is that if there is going to be an enormous 
amount of money generated in a country that is doing this, a 
country where human rights is the low-hanging fruit of the 
yearning of the actual leadership and the people, well, then, 
in fact, they are inviting such solidarity, as I read it. That 
these companies do just that, and make the decision with the 
very clear thought that it is simply wrong to continue to 
support it.
    Ms. Bass. Sure. Because there are different questions, 
degrees. We call on them to speak out or we can call on them--
--
    Mr. Penn. Yes. And we are not asking that they suddenly 
revolutionize the judiciary. We have a difficult time doing 
that here----
    Ms. Bass. Thank you.
    Mr. Penn [continuing]. Or our school systems. We know that 
it is difficult. Governance is difficult. What we are saying is 
show the first step. Here is the easiest case you have. The man 
is clearly innocent. Even your officials within the judiciary 
acknowledge that. As I said, this is ``a bad case.'' That is 
what he meant: ``We have no case. We are just holding him.'' 
Release him now.
    Ms. Bass. You know, I also wanted to ask you, while you 
were in Bolivia, did you have any interaction with our Embassy 
and its staff? And also the fact that we don't have an 
Ambassador in place. I don't know what level of involvement or 
participation they had in your visits.
    Mr. Penn. Well, as you know, President Morales recently 
ousted USAID. And I think that is further representation of the 
kind of concerns, one, that starts with what has been a history 
of intervention, often, I think, very negligent intervention on 
the part of United States, both in Bolivia and other countries 
in South America. This is embedded in the spirit of the people 
and of their leaders. I think in struggling for a new day, 
certainly we need Ambassadors. We need them there, we need them 
in Venezuela. But, yes, I had some limited interaction with 
what again had appeared to be a very supportive Charge 
d'Affaires at the Embassy in Bolivia. But as my particular 
interest at the time was in communicating separate from that 
because I didn't want to mix the issues too much, I spent most 
of the time with Bolivian officials.
    Ms. Bass. Last question, slightly different topic, thought. 
In terms of what the President did a couple of weeks ago, I 
think it was a couple of weeks ago, when he expelled USAID, how 
did you read that? Did you read that as President Morales doing 
that because he needed to take a stand against the U.S.? Or did 
you ever hear of particular concerns? You know, was there some 
legitimacy to that? People were upset about something USAID had 
done?
    Mr. Penn. I think, you know, as it goes region to region 
that the investment of USAID or the commitments of USAID there 
were not on such a level that it couldn't be used politically. 
At the same time, I am more inclined to take the President at 
his word. And I think he is fed up with what would be 
considered hegemony.
    Ms. Bass. Thank you. Thank you very much.
    Mr. Smith. Chair recognizes the ranking member of the full 
committee, Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman. And let me once again 
thank you for your really hard work and determination in this 
particular case. You have been doing so much of this for so 
long that everyone really should know it.
    And, Mr. Penn, I want to thank you for adding star power to 
this. It is really very, very important. It is frustrating for 
us. You know, we try to get people to focus on it. But everyone 
is going a million different directions. And as the ranking 
member on the full committee, I want to just thank you for 
coming here. It is very, very, very good of you.
    The case obviously is heartbreaking. The injustice on Jacob 
Ostreicher and his family is difficult to fully grasp. And when 
he was detained under murky circumstances in Bolivia in 2011, 
no one could have imagined that to this day he would be 
prevented from going home to New York. It is now clear, as was 
said here, that Jacob was the victim of a sordid extortion 
ring. And multiple arrests have been made in the case. And we 
fully expected these arrests would be followed by his release. 
But, unfortunately, he is in a legal spiral. And even though 
the prosecution has never presented evidence against him, he 
has now been held in Bolivia for 718 days.
    I have met with Evo Morales on different occasions, once 
right here in this building in my office, once in Bolivia. I 
would certainly be willing to meet with him again. What is 
happening here is reflecting very poorly on Bolivia, its legal 
system and its government. And I had said to President Morales, 
he threw out our Ambassador--this was several years ago--and 
kicked out our drug agents, and seemed to feel that things 
could go on as usual, normal as usual. It really cannot be the 
case. And it is difficult for our governments to have relations 
as usual as long as Jacob Ostreicher is there.
    Mr. Penn, you have visited Mr. Ostreicher in Bolivia. You 
have appeared by his side in some very difficult moments. And I 
think your humanity is something that we all really admire. I 
see Miriam here, Jacob's wife. And it is good to see you. And I 
hope that next time we will see each other and celebrate in New 
York after he has been released.
    Jimmy Carter, former President, is meeting with Morales 
today. And I hope he--I wish him luck in advocating for Jacob.
    Mr. Penn, I wanted to ask you, we have very few cards to 
play, the United States has very few cards to play. It is 
frustration because very few cards. But what should we be doing 
that we haven't done? I know we have all tried. Certainly, the 
chairman has gone there and made it a cause celebre of his. And 
we have tried to focus attention on it. In a situation like 
this, we are not so sure if we make noise about it if it is 
good for Jacob or if we are quiet about it it is good to Jacob. 
You don't really know what to do. You don't want to be quiet 
and then nothing happens; you don't want to make noise and then 
Morales or whomever gets offended, you have to try to find the 
right mix. In your opinion, because you have been doing this 
and you have been out in front of this, what should we be doing 
here in the Congress that we haven't done? Or in the government 
that we haven't done?
    Mr. Penn. I think this returns to the question from Ms. 
Bass. Because I would agree, it is treacherous territory when 
going public in any way on these things. There is--and I say 
this with nothing but regard--a great humility in the culture 
that is exemplified by someone, for example, like President 
Morales. And when statements are made that seem to be 
continuations of the ideologies and the entitlements and what 
fairly could be called the arrogances of misguided policies, 
historically or currently, we always have to be very cautious.
    When talking about, for example, a letter on the Dakar 
Rally. I think you should know, if I am speaking as fairly as I 
can, that my opinion on that is based on the belief, and I do 
not think that in any way this is over dramatizing or 
exaggerating the situation, I believe Jacob's life is in danger 
as we sit here today. The people whose own freedom is at risk, 
both those at large and currently in prison and facing charges, 
are people who have played very serious ``baseball.'' It is 
very hard for us sitting in the United States to understand 
just how fast a .37 bullet can fly. I think that we are at a 
point now, we don't want to look back and say, ``We shoulda.''
    So what is our option? I think, for example, to recognize 
it and to do it as I recommended, which is in solidarity with 
what the government itself claims to be in pursuit of. There is 
that.
    I also can tell you, simply based on the kind of chatter 
conversations one has traveling in these regions, I think that 
it would be a very, very powerful step for the United States to 
look to negotiating the release of one or more of the Cuban 
Five.
    I think that we always have to look at the result. And the 
result, both for someone like Jacob Ostreicher as well as for 
Alan Gross in Cuba, of the United States being the one to step 
up.
    By no means am I suggesting that Bolivia be given a pause 
while that is considered. But I think we really have to add 
some perspective. We know that our country has about 28 percent 
of its citizens total with passports at all. And we can all 
fall into what becomes an inherently limited-perspective 
analysis of the world.
    We could do better. We could do better this way.
    Mr. Engel. Would you think that--in your opinion, would it 
be possibly helpful if we made it clear, if our Government made 
it clear that the release of Mr. Ostreicher would lead to a 
rapprochement with Bolivia? You know, we have had, as I have 
said, very strained relations since our Ambassadors have been 
out, and drug agents, harming cooperation that we had with 
Bolivia for many, many years. Evo Morales made a point when we 
met with him, because I also took a delegation down there, that 
he is used to being the President of a coca farmers' union. And 
made a big point of how he is for the rights of the 
downtrodden. You know, I can't think of anyone more downtrodden 
right now than Jacob Ostreicher.
    Shouldn't it be indicated to him--I know a lot of this is 
obviously done behind the scenes and not done in hearings--but 
that his release would allow for a rapprochement, that we have 
a lot of things that we could offer Bolivia, and this might be 
a step in the right direction; that it takes two to tango and 
we could probably tango together.
    Mr. Penn. Yes. And it is my feeling that that could be done 
in a very genuine way. Because in all of the conversations that 
I have had, and I am talking bipartisan groups related to this 
within government--within the United States Government, there 
is an enormous will to embrace the selected indigenous 
President of that country. A tremendous will. But as long as 
Bolivia and its judiciary, or the President, in effect takes 
cover behind an institution that has an internal revolution 
going on within it of corruption, we won't be able to--I 
wouldn't expect that our Government officials would get very 
far with their constituencies. I think that he has to make this 
first move. I hope he does for Bolivia's sake. I hope he does 
for his sake and his leadership's sake.
    Mr. Engel. Well, I think that is very well put. And I would 
certainly concur with what you said.
    The final thing I want to say, very much in the past 
several years the policies of Bolivia have been wrapped around 
the policies of Venezuela. And the two governments have been 
working in tandem. Obviously, there is in Venezuela, with a 
longstanding leader passing away, I would hope that this case 
could lead, perhaps, to Evo Morales standing up on his own and 
breaking out on his own and showing that he is nobody's number 
2 person, he is branching out and going to be number 1 in terms 
of dealing with the United States. I would say that I hope to 
do everything that might be done to help facilitate that. I 
just hope that he would understand that I think there is a very 
big chance now with Hugo Chavez being gone that the United 
States and Bolivia could perhaps reach out again in cooperation 
and what better way to start than by releasing Jacob 
Ostreicher.
    Mr. Penn. I would only, if I may, I would only caution that 
the pursuit of that from the United States' side must be very 
sensitive to the understanding that it is not because it wasn't 
available due to President Chavez, this is always going to be 
two-sided, it is not going to be that they are going to be 
necessarily more in-line ideologically with what we as the 
United States want them to be, but in fact that there has been 
an existing potential diplomatic relationship far exceeding 
that which either side has been successful in accomplishing for 
reasons of stigma and propaganda, and because we suffered--I 
think one of the great enemies of Jacob Ostreicher today has 
been one of the greatest challenges we face throughout the 
world, which is the media perversion of the circumstances. When 
the media perverts the circumstances, then our own politicians 
are also influenced as we are talking about President Morales 
being.
    I can tell you of a circumstance, you know, we were 
involved, President Chavez helped very directly with the three 
U.S. hikers who were in Iran. And it was then-Minister of 
Foreign Affairs Maduro and his then-Deputy, Temir Porras, with 
whom I met and who directly went to Iran to negotiate with the 
Supreme Leader following failed negotiations with President 
Ahmadinejad. So here was the Venezuelans meeting me at the 
airport in New York City on behalf of three Americans who were 
arrested in Iran.
    It just takes a little respect to get a long way, 
particularly in these regions that I would concur with my 
military friend, who I was quoting before, with whom we have so 
much more in common than we do in difference.
    Mr. Engel. Thank you very much, Mr. Penn. I have always 
been a fan of yours for other reasons, but now I am really a 
fan of yours. Thank you very much.
    Mr. Penn. Thank you, sir.
    Mr. Smith. Thank you, Mr. Engel.
    Ms. Velazquez.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Mr. Penn, thank you so much for bringing a unique 
perspective that sometimes is lacking when we are dealing with 
issues concerning Latin America. You know, here we are, 
sometimes we don't like--we support and encourage democratic 
processes throughout the world but when those democratic 
processes produce results that we don't like then it brings a 
different dynamic. And sometimes cases, like Mr. Ostreicher, 
are linked to those dynamics whether we like it or not. I hope 
that from this moment forward we seize the opportunity as a 
government to improve our relationships with Latin America and 
deal as equals. Because that is important.
    So, as a private citizen, Mr. Penn, you have a unique 
access to this case. My question to you is, given what you 
know, given all the meetings that you have held with officials 
in the past and the present, now they are saying that he is 
going to be held under house arrest for 5 more months. Do you 
see any light at the end of the tunnel in terms of a resolution 
that gets him home within those 5 months? Or do you foresee 
that it might take longer?
    Mr. Penn. As long as the leadership maintains that this is 
under the authority of the judiciary and claims a position that 
they have no legal recourse outside of that, my experience with 
and witness of that judiciary is I would have absolutely no 
faith on Earth that he will ever leave Bolivia if it is left to 
that.
    Ms. Velazquez. You have worked in so many worthy causes, 
from victims in Haiti after the earthquake in 2010 to Hurricane 
Katrina in 2005. Could you take a moment and tell us what 
compelled you to advocate for Jacob Ostreicher?
    Mr. Penn. A colleague, the actor Mark Wahlberg, had called 
me. I think that--my understanding is that he had had some 
philanthropic activities with some of the rabbis from Mr. 
Ostreicher's synagogue. And asked--I think initially he had 
asked if I might bring the case to President Chavez. And at 
that point, I informed him that I might be able to bring it 
directly to President Morales, which is what I did.
    And as I said, it was--you know I can give you a very 
simple answer, it timed at a point when I could pay attention 
to it. And in paying attention to it, I couldn't stop paying 
attention to it.
    Ms. Velazquez. Thank you.
    Thank you, Mr. Chairman.
    Mr. Smith. Mr. Nadler.
    Mr. Nadler. Thank you. And thank you, Mr. Chairman.
    Let me again start by thanking you, Mr. Penn, for your 
activism in this and a few other things. Let me ask you a few 
questions.
    You said the President is--President Morales is fed up with 
what he considers hegemony. Are you referring to the hegemony 
of the United States or the judiciary?
    Mr. Penn. Of the United States.
    Mr. Nadler. Of the United States. And in light of that, you 
suggested that American companies could put pressure on the 
government by threatening to pull out of the Dakar Rally. Do 
you think that would--there is a real risk that that would be 
viewed as more hegemony and might backfire, or is that 
something we ought to try?
    Mr. Penn. Well, the companies themselves are not only U.S. 
companies. I think that, you know, that this can come in a 
variety of ways. I would like to consider, and I think that 
myself in consultation with other supporters of Mr. Ostreicher 
will send out a request for citizens on an international level 
to support this and to make these reach-outs to these 
companies. I would like to talk directly and attempt to talk 
directly to these companies and people on the boards of these 
companies.
    But again, it goes back to the threshold consideration and 
that there has been quite a concerted effort on behalf of Mr. 
Ostreicher in a situation where virtually nothing else has 
worked or made sense. I mean, I think in talking to anyone that 
has been in proximity to this case, it really makes no sense. 
And aside from Mr. Ostreicher and his family, the damage it is 
doing is so particularly to the leadership in Bolivia and to 
the people. This is, I believe, a wake-up call because it goes 
very much to--the beneficiaries of that investment are going to 
start with those who are in the opposition.
    Mr. Nadler. Thank you. Do you think the President realizes 
how much this is damaging Bolivia?
    Mr. Penn. No. I don't think so. I think that the 
President's area of expertise is very, very rich, and his areas 
of deference to the expertise of others is fairly weighted as 
well, and I have minimal faith in many of the others who 
surround the President.
    Mr. Nadler. Okay. Now, you either said or implied before 
that you thought the President, President Morales, thought that 
Mr. Ostreicher's treatment had been unfair but that he has 
deferred to the judiciary. Now, I don't know what the situation 
is in Bolivia, maybe you do, that is why I am going to ask the 
question. In this country and in many countries, the 
prosecutions, the prosecutors are agents of the executive 
branch, not of the judiciary. Is that the case in Bolivia? I 
mean, could the President simply tell the prosecutors to drop 
the case?
    Mr. Penn. Say that again, I am sorry.
    Mr. Nadler. Could the President simply tell the prosecutors 
to drop the case? Are they agents--are the prosecutors part of 
the judiciary or are they agents of the executive branch in 
Bolivia?
    Mr. Penn. It is my understanding that once the 18 months 
passed that this could come down from the executive branch.
    Mr. Nadler. So we have to convince the President that he 
could do it on his own without taking on the judiciary.
    Mr. Penn. Yes.
    Mr. Nadler. Let me ask you one other--okay. So your 
judgment is that we should pursue this Dakar Rally despite some 
risk of blow-back.
    Mr. Penn. There is no question there is risk of blow-back.
    Mr. Nadler. But the odds are that they should pursue it?
    Mr. Penn. That is my feeling.
    Mr. Nadler. Okay. Let me ask you another thing. Did you, in 
talking to people in Bolivia, to the President, did you get any 
blow-back in a different way: Who the heck are you Americans to 
be talking about someone held for 2 years without a trial when 
you have held hundreds of people in Guantanamo for 10 years 
without a trial? Is this affecting this?
    Mr. Penn. Yes. These things affect us, and it is part of 
the daily conversation. In fact, in my own personal 
circumstances, after the would-be-joke-were-it-not-so-tragic 
hearing that I described in my initial statement, there was a 
collection of those who had been involved: The lawyers, Embassy 
staff, U.S. Embassy staff, Venezuelan Embassy staff, and 
Bolivian Government there, it was at that time that Mr. 
Ostreicher had decided that the only way to approach this--and 
it is from him I take most of my guidance in answering your 
questions--though I have not discussed the Dakar Rally with 
him. I was concerned about discussing it prior to coming and 
giving you the testimony--but I had discussed and had at his 
request participated in going public, it is his general feeling 
that it is----
    Mr. Nadler. ``His'' meaning Mr. Ostreicher's?
    Mr. Penn. Yes. And it was he that requested that we do a 
press conference the day following that mockery of a hearing. 
When we did so, I can tell you that after passing my prepared 
statements that I had written that night before by the Minister 
of Communications for the Bolivian Government as well as 
several authorities within the judiciary, as well as those 
representing the other governments who were participating in 
support, even after getting all of my statements signed off on, 
because I was looking to be very careful about how I did it, 
the blow-back which started with the media response and the 
media manipulation of the things that I had said and the way 
that it was being used to misinform a challenged-literacy 
population, worked very much against the President. And the 
President was very upset by the statement I made and no doubt 
will be upset by the statements I have made today.
    I want to go on record saying I have enormous respect for 
President Morales and great affection for the man, but I just 
feel that my responsibility as a human being is with Jacob 
Ostreicher on this issue. And I do think that President Morales 
can only benefit from all of us speaking out at this point 
because I think that he is like many world leaders, challenged 
by a bubble and by corrupt forces within his own 
administration.
    Mr. Nadler. Well, we have to hope that you are right. And 
we will pursue that, obviously.
    And, again, thank you for your efforts on this and so many 
other things.
    I yield back.
    Mr. Penn. Thank you.
    Mr. Smith. Thank you very much, Mr. Nadler.
    And thank you, Mr. Penn, for your, I think, extraordinary 
testimony. I think your point, you know, ``challenged by a 
bubble,'' what a way to put it, is excellent. He needs to know 
what is going on, doesn't necessarily get the kind of 
information that would make a difference. I really believe and 
I hope the press takes note. You come here as a friend to Evo 
Morales. Much of his politics, it wouldn't be something I would 
agree with, but this is not about any of that, it is all about 
Jacob Ostreicher, a man whose life is at grave risk. Justice 
demands it, humanitarianism demands it. And I do think for Evo 
Morales and the government to step up and release him now is 
enlightened self-interest. It is harming the reputation of the 
Bolivian Government.
    I would disagree with you about the opposition. I do 
believe oppositions, no matter where they are, play, whether it 
be the United States or anywhere else, a constructive role. You 
know, I never think of my Democratic friends as the enemy. We 
are the loyal opposition, and vice versa. And I do think they 
play a very good role. I know there are certain members of the 
opposition who are facing charges themselves, Senator Pinto, 
for example, and many others. It ought to be all about an 
absolutely unassailable judiciary that just looks at 
lawbreakers and then prosecutes them.
    Mr. Penn. Yes, if I mistakenly generalized that, certainly, 
I didn't mean it in a blanket sort of way.
    Mr. Smith. Thank you. We do have a list, I will make it 
part of the record, of all of the, so far, 27 individuals--and 
I do hope the press and my colleagues will take a good, long 
look at it starting with Fernando Rivera, lawyer of the 
Ministry of Government. And as you go down it, we are talking 
about very high-level people in the prosecution service who 
themselves now are in Palmasola prison or under house arrest, 
and five of them are fugitives. So, you know, this--the facade 
of legitimacy has been ripped off. Jacob, sadly, has been the 
cause, or the proximate cause, as to why that happened. But on 
behalf of his family, we all just want him back. And you have 
done, I think, a huge service to justice, democracy, human 
rights, and to Jacob Ostreicher.
    If you have anything you would like to say in conclusion, 
or we will just conclude the hearing.
    Mr. Penn. I would just thank you all, and I'm very honored 
and grateful to have been able to share the comments.
    Mr. Smith. Thank you, Mr. Penn, and we look forward to 
working with you in the future. We appreciate it.
    Mr. Penn. Thank you.
    [Whereupon, at 4:30 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                 Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Material submitted for the record by the Honorable Eliot L. Engel, a 
         Representative in Congress from the State of New York

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
